                                                                Issue Date
                                                                         April 10, 2007
                                                                Audit Report Number
                                                                         2007-AT-1006




TO:        Boyce Norris, Jr., Director, Office of Public Housing, 4APH


FROM:
           James D. McKay, Regional Inspector General for Audit, 4AGA


SUBJECT:   The Housing Authority of DeKalb County, Decatur, Georgia,
           Did Not Adequately Monitor Contract Payments

                                 HIGHLIGHTS

 What We Audited and Why

           As part of the U.S. Department of Housing and Urban Development (HUD),
           Office of Inspector General’s (OIG) strategic plan, we reviewed the Housing
           Authority of DeKalb County’s (Authority) administration of its procurement and
           financial management systems. Our objective was to determine whether the
           Authority has complied with its low-income program contractual and regulatory
           requirements since being released from its memorandum of agreement
           (agreement) with HUD.


 What We Found


           The Authority did not adequately monitor contract payments and did not comply
           with federal requirements or its financial management policies. These
           deficiencies occurred because the Authority did not have proper internal controls
           over its procurement payment processes. Its staff did not ensure that its financial
           management policies were followed, nor did all staff follow the established
           procedures for processing contract payments. As a result, the Authority incurred
           $47,051 in ineligible costs and $36,404 in unsupported public housing funds.



  Table of Contents
What We Recommend


           We recommend that the director, Office of Public and Indian Housing require the
           Authority to repay $47,051 to its public housing program for ineligible contract
           payments from non-federal funds and either support $36,404 in unsupported
           contract payments or repay its public housing program from non-federal funds.
           The director should require the Authority to develop and implement internal
           controls to ensure that contract payments are complete, accurate, and in
           accordance with established procedures. In addition, the director should ensure
           that the financial management policies are followed and that all Authority staff
           members follow the established procedures when processing contract payment
           requests.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We discussed our review results with the Authority during the audit and with
           HUD Officials during the exit conference. We provided a copy of the draft report
           to Authority officials on March 5, 2007, for their comments and discussed the
           report with the officials at the exit conference on March 13, 2007. The Authority
           provided written comments on March 23, 2007. The Authority generally agreed
           with the finding and recommendations contained in the report.

           The complete text of the auditee’s response, along with our evaluation of that
           response, can be found in appendix B of this report.




Table of Contents
                                            2
                           TABLE OF CONTENTS

Background and Objectives                                                     4

Results of Audit
      Finding 1: The Authority Did Not Adequately Monitor Contract Payments   5

Scope and Methodology                                                         9

Internal Controls                                                             10

Appendixes
   A. Schedule of Questioned Costs                                            11
   B. Auditee Comments and OIG’s Evaluation                                   12




                                           3
                     BACKGROUND AND OBJECTIVES

The Housing Authority of DeKalb County (Authority), located in Decatur, Georgia, was
established in December 1955 in accordance with state and federal law to serve the citizens and
communities of DeKalb County, Georgia, by promoting quality housing and related economic
development. Initially, the Authority was a part of the DeKalb-Decatur Housing Authority.
Effective November 3, 2003, the DeKalb-Decatur Housing Authority split into two separate
housing authorities. Since then, various interim and acting executive directors have administered
the Authority. A permanent executive director was appointed in October 2004 to address
unresolved separation issues and move the Authority forward with revitalization and
development efforts for affordable housing. On October 13, 2006, the Authority’s board of
commissioners terminated the executive director’s contract. Currently, an interim executive
director is responsible for the Authority’s daily operations.

The Authority operates a wide variety of programs that are designed to provide housing solutions
to DeKalb County residents and promote community and economic development. These
programs include public housing, the Housing Choice Voucher program, affordable housing,
multifamily tax-exempt bonds, the HOME Investment Partnerships Program, and the
homeownership program. In addition, the Authority has established partnerships with other local
organizations to provide support services to residents and the DeKalb community at large. The
Authority currently owns and operates 698 units of public housing, 498 units at Johnson Ferry
East and 200 units at Tobie Grant Manor.

The Authority’s six-member board of commissioners oversees the direction of the Authority.
The board of commissioners is appointed by the chief executive officer of DeKalb County and
ratified by the county commission. The board of commissioners is responsible for hiring the
Authority’s executive director to manage daily operations and the Authority’s $55.3 million
annual operating budget.

MDStrum Housing Services performed an independent assessment of the Authority and in its
December 2004 report, stated that the Authority did not have a centralized procurement function.
Various areas were responsible for the process and administration of procurement. In addition,
the report stated that the procurement files did not consistently show evidence of proper
procurement activity. Based on the independent assessment and its troubled designation, the
Authority entered into a memorandum of agreement (agreement) with the U.S. Department of
Housing and Urban Development (HUD) in May 2005 to correct the deficiencies identified in
the independent assessment. HUD released the Authority from its agreement in June 2006,
based on the Authority’s certification that tasks and subtasks in the agreement had been
completed.

Our primary objective was to determine whether the Authority has complied with its low-income
program contractual and regulatory requirements since being released from its agreement with
HUD.



 Table of Contents
                                               4
                                 RESULTS OF AUDIT


Finding 1: The Authority Did Not Adequately Monitor Contract
           Payments
The Authority did not adequately monitor contract payments. It did not use HUD funds in
accordance with federal requirements or its financial management policies. Vendor payments
from HUD funds totaling $83,455 were questioned. These deficiencies occurred because the
Authority did not have proper internal controls over its procurement payment processes. The
Authority’s staff did not ensure that its financial management policies were followed, nor did all
staff follow the established procedures when processing contract payments. As a result, $83,455
in public housing funds was questioned, and additional HUD funds may have been subjected to
waste.



 Criteria



               Part 1, section 12 (A) (2), of the Authority’s annual contribution contract requires
               the Authority to maintain complete and accurate books of account for its projects
               in such a manner as to permit the preparation of statements and reports in
               accordance with HUD requirements and to permit a timely and effective audit.

               The Procurement Handbook for Public and Indian Housing Authorities 7460.8,
               chapter 3, paragraph 3-8, states all housing authorities should have a management
               information system for procurement. Such a system may be manual or
               automated. Automating the management information system may be as simple as
               automating the housing authority’s procurement log or register.

               The Authority certified to HUD in its agreement progress report that it had
               established and implemented financial management standard operating
               procedures that should have corrected the questioned contract payments
               identified. The Authority also certified that it had developed and maintained a
               procurement log and maintained properly constituted procurement records.

   The Authority Incurred $83,455
   in Questioned Costs


               The Authority did not use public housing funds in accordance with federal
               requirements or its own financial management policies and procedures. We


                                                 5
  Table of Contents
         reviewed 122 contract invoices that were paid from July 1 through September 30,
         2006, for 27 vendors. Deficiencies were identified in payments to 11 contractors,
         41 percent of the total vendors reviewed. These contract payments were made
         after the Authority was released from its agreement in June 2006. The Authority
         made $47,051 in ineligible contract payments that did not conform to contract
         provisions. The payments were for services performed outside of the contract
         period or in excess of the contract’s not-to-exceed amount.

         For example, one contractor was awarded two contracts and one change order
         with not-to-exceed amounts totaling $146,000 for information technology
         consulting services. This contractor was paid $165,000, $19,000 over the contract
         amount. Of that amount, $15,000 was paid after the Authority was released from
         its agreement. Another vendor was contracted to provide heating and air
         conditioning services to the Authority’s properties with a not-to-exceed contract
         amount of $80,676. As of September 30, 2006, this vendor had been paid
         $223,675, of which $7,401 was paid after the Authority was released from its
         agreement. A contract ceiling amount is essential to ensuring that contract
         administration is handled effectively and high quality work is obtained at a
         reasonable cost.

         The Authority also made $36,404 in unsupported contract payments. Invoices did
         not document the services provided. In some instances, a check or receipt was
         missing from the supporting documentation.

         Overall, the following contract payments, presented in the table below, were
         questioned.

                            Contractor            Ineligible 1     Unsupported 2
                                 1                 $   17,014
                                 2                 $   15,000
                                 3                 $    7,525
                                 4                 $    7,401
                                 5                 $      111
                                 6                                    $   12,150
                                 7                                    $   11,794
                                 8                                    $    9,818
                                 9                                    $    2,000
                                10                                    $      401
                                11                     ____           $      241
                               Totals              $ 47,051           $   36,404
                         1. The payments were classified as ineligible because
                            these payments were made in excess of the contract
                            amount or after the contract expired or were approved
                            by unauthorized employees.

                         2. The payments were classified as unsupported
                            because the supporting invoices were not detailed or
                            there was no contract in place to support the services
                            provided.




                                              6
Table of Contents
          In addition, the Authority did not process contract payments in accordance with
          its policies. The Authority’s contract and purchase order payment request forms
          include sections for tracking contract amounts, the value of work completed to
          date, total payments made to date, and the current payment request. However,
          Authority staff used the wrong forms to process payments, which contributed to
          the Authority’s failure to monitor contract payment provisions. This error
          resulted in the payment of contractors in excess of the not-to-exceed amount or
          after the contract period had expired and the preparation of purchase orders and
          requisitions after invoices were received. Some purchase orders were prepared
          after the checks were prepared.

          Also, some payments were approved by staff without proper authorization. The
          vice president of finance stated that the former executive director verbally
          delegated the duty of approving payments in her absence to several employees
          without proper authorization. The Authority’s “Accounts Payable and Check
          Processing Policies and Procedures” states that contract payment requests,
          invoices, and receiving reports require approval from either vice presidents or the
          executive director. Vice presidents are responsible for approving payments from
          $251 to $15,000. Payments over $15,000 require executive director approval.
          The management information system manager approved payments of $10,334 and
          $2,416, respectively.

          These deficiencies occurred because the Authority did not have proper internal
          controls over its procurement payment processes. For example, it did not
          maintain an active contract register. Not having a contract register contributed to
          payments being made without a contract in place, before a contract began, or after
          a contract had expired. The Authority also did not have internal controls in place
          to ensure that payments were properly approved by authorized employees.
          Deviations from the Authority’s policies contributed to the $83,455 of questioned
          costs identified.

          Although the Authority may have faced several challenges from frequently
          changing executive management, it needs to develop internal controls over its
          payment process to ensure that federal requirements and its financial management
          policies are followed.

Recommendations



          We recommend that the director, Office of Public and Indian Housing require the
          Authority to

          1A.     Repay $47,051 for ineligible contract payments to its public housing low-
                  income program operating reserve and reprogram the capital fund budget
                  to expend the funds being made available within the statutory time



Table of Contents                          7
                requirement or return them to HUD. However, if the funds are due both
                the capital fund and the operating fund the amount should be appropriately
                divided between the two funds from non-federal funds.

          1B.   Provide documentation to support the $36,404 in unsupported contract
                payments or repay its public housing low-income operating reserve
                program from non-federal funds.

          1C.   Develop and implement internal controls to ensure that contract payments
                are complete, accurate, and in accordance with established procedures and
                that all Authority staff follow the established procedures when processing
                contract payments.




Table of Contents
                                         8
                          SCOPE AND METHODOLOGY

To achieve our audit objectives, we reviewed

   •   Applicable laws, regulations, and other HUD program requirements relating to
       procurement;
   •   Authority standard operating policies and procedures for finance and procurement;
   •   Contract payments and supporting documentation provided by Authority staff and
       officials;
   •   Information available on the Internet and HUD’s intranet; and
   •   Management control systems pertaining to procurement and finance.

We reviewed various documents including contracts, financial statements, general ledgers,
minutes from board meetings, check vouchers, invoices, and reports from the independent public
accountant. In addition, we gained an understanding of the Authority’s accounting system as it
related to our review objective.

We obtained and reviewed a listing of contract payments that were made with public housing
funds from July 1 through September 30, 2006. A total of 122 contract payments were made
totaling $321,937. These payments were made to 27 vendors. We selected all of the 122
contract payments to review for proper support and eligibility.

We also interviewed the HUD Georgia State Office of Public Housing program officials and
Authority management and staff. We performed our site work between September 2006 and
January 2007 at the Authority in Decatur, Georgia. The audit covered the period July 1 through
September 30, 2006.

We conducted the audit in accordance with generally accepted government auditing standards.




   Table of Contents
                                               9
                           INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


            We determined the following internal controls were relevant to our audit objectives:

            •   Compliance with laws and regulations - Policies and procedures that
                management has implemented to reasonably ensure that resources are
                safeguarded against waste, loss, and misuse.

            •   Safeguarding of resources - Policies and procedures that management has
                implemented to reasonably ensure that resources are safeguarded against waste,
                loss, and misuse.

            We assessed the relevant controls identified above.

            A significant weakness exists if internal controls do not provide reasonable
            assurance that the processes for planning, organizing, directing, and controlling
            program operations will meet the organization’s objectives.


 Significant Weaknesses


            Based on our review, we believe the following item is a significant weakness:

            •   The Authority did not adequately monitor contract payments (see finding 1).




 Table of Contents
                                               10
                                      APPENDIXES

Appendix A

                   SCHEDULE OF QUESTIONED COSTS

                      Recommendation
                          Number                Ineligible 1/    Unsupported 2/
                             1A                   $ 47,051
                             1B                                       $ 36,404
                                                   ______              ______
                            Total                 $ 47,051            $ 36,404




1/      Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
        that the auditor believes are not allowable by law; contract; or federal, state, or local
        policies or regulations.

2/      Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
        or activity when we cannot determine eligibility at the time of audit. Unsupported costs
        require a decision by HUD program officials. This decision, in addition to obtaining
        supporting documentation, might involve a legal interpretation or clarification of
        departmental policies and procedures.




     Table of Contents
                                               11
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation   Auditee Comments

Comment 1




                         12
  Table of Contents
Table of Contents   13
                    OIG Evaluation of Auditee Comments




                                   14
Table of Contents
                        OIG Evaluation of Auditee Comments


Comment 1    The Authority’s agreement with the finding and recommendations indicates its
             willingness to make necessary improvements to its procurement and financial
             management systems.




  Table of Contents
                                          15
